oj/e>< 12-1
r^O

^ o-tm

No.
3fn tfje ZHntteiJ latest Jfeberal Supreme Court
Federal Supreme Court, Mr. Jules Dylan Stuer and obo DBA The Estate of Lily Ana
.___________________________Stuer_____________________________
Petitioner[s],
v.

Federal Supreme Court, Susan Duesler, Gerald Tadlock, Ryan McFarlin (24057712,
24013603, 24055936) Stephanie Marie Woodall -Bagot -Ebbesen -Stuer Reynolds and
ALL INTERESTS PROPERTIES AND PERSONS OF LILY ANA STUER’ & ESTATE

a»HMl

from the 5th Court of Appeals, Cause No. 05-19-00752CV, Cause No. DC-18-07494*
298th Court for Defamation, AG Complaint Cause No. CGS-73496, OAG Complaint!
Sause No. 0013611355. IG Complaint No. 2021-293402 TREC Complaint No. 18050
with CPS reports 457-369-27, 723-073-92, 735-292-4Sj
the 68th Court DC-19-16060 Malpractice Case where£______
the newly recused Judge Tobolowsky of the 298th Court for Dallas Count)]
has Defaulted her case for the Honorable Supreme Court of TX, Cause No. 20-0793]
and new Child Support / Custody Case, Cause No. DF-20-16005

Petition for Writ of Centiorari
To Asset Recover for Estate Reconstruction,
Want of Prosecution, and Bill of Review
* Additional Dallas County Community Funds to fight visitation, alienation child abuse,
fraud, perjury during the divorcing process, available in Asset Recovery Plan. **Calling
for help from the TX AG, SEC, FTC, IRS, Judges, and Executives in Washington, DC.
Name] Mr. Jules Dylan Stued
FILED
Kddressi *1238 Dalhart Drj
“
Richardson. TX 75085
MAR 01 2021
[Telephone No. j ^694714200
9f.&c?Fi„°FcounTLu,sK
^Facsimile No.j
E-mail address! CriticartlicsQQ777@gmail.conj
Pro Se____________ —,

RECEIVED
MAR

2021

OFFICE OF THE CLERK
SUPREME COURT. U.S.

*

Questions Presented
1. Is an AMICUS Attorney allowed to side with someone who damages a child
repeatedly, perjures themselves in Civil Court numerous times, and defrauds the
opposing party biasedly and against TFC 107.009B?

2. Do Federal Victim’s Rights Laws and Standing Orders take precedence over

Temporary Civil Law Orders, in custody battles, where the child is being abused /
damaged?

3. If the Petitioner was being defrauded and his child was being actively damaged as

in Case DF-17-05507s, is the Amicus then able to declare him “emotionally and
financially unstable”, refuse to set a date for a Full Custody Order, and then state
that he “does not have a family”, ex parte, to secure a subjective and libelous Writ
to the child’s body or is this Defamation?

4. In the Decree, is the Amicus then able to secure funds from the Petitioner as Title

IV Child Support and claim he signed the document?

5. In the Decree is the Amicus able to state that the Petitioner had a “history of
neglect” and is “likely to stalk the other party” to ensure payment or jail against
Constitutional Provisions without any criminal wrongdoing proven?

ALL Parties
List of Relevant Cases
The following constitutes a list of all parties to the trial court's final judgment and the
names and addresses of all trial and appellate counsel:
Petitioner:

Name Mr. Jules Dylan Stuer, Pro Se Fatheij
Address 1238 Dalhart Dr.. Richardson TX, 7508(1

Respondent:

I 'lame Susan Duesler, Gerald Tadlock. Stephanie!
Reynolds;
~
Address Hidden from Petitioned

Respondent’s Counsel:

Name Ryan McFarllnXwho has claimed not to bej
respondents counsel but respondent named as hes
counsel^
All correspondence can be made to the above!
and below through^
Susan Duesleg
(214) 999-0088
3710 Rawlins St #1420, Dallas, TX 75219
(As the 255th Court's muse and actor to the
maternal child abuse, perjury, solicitation of the
child, constructive fraud*)
susan@dueslerlaw.com

Other parties:
(if applicable)

purtis Baggett (Stephanie’s fathers_____________
[Wendy Carlson (Texas Notary Service and Secretary)]
patricia Hale (Texas Notary Service and Secretary)]
[Tracy Woodall (Stephanie’s Mother and CPA), Jessica
Blacksheer, Laurie Hoeltzel, Brett “Baggett” Thomas]
part Baggett, Mr. Reynolds, and all other holders of
property belonging to the Estate of Lily Ana StueB

Counsel for other
parties:

Possible^

Abbreviations, Aliases, and Report Records References
Petitioner, Mr. Jules Dylan Stuer, will be referred to as JDS, Plaintiff, or Appellant; Appellee,
will be referred to as SD, Defendant, or Appellee. SD's accomplice in the Defamation was
GT, who will be referred to as GT, or Defendant.

The Cerks records in any given case will be referred to as:
OL [court number, case numberll

The Reporters record will be referred to as:

Clerk's and Reporter's record will need to be recovered by the Federal Supreme Court
Online or on Paper through Supreme Court Service, as Mr. JDS has been Defrauded, is
proclaimed "financially indigent" by The Honorable Judge Cooks, of the 255th Court, and is
in an inability to pay status due to indenture, debt, and in a victim status. He is also unable
to afford 10 copies of the case. Appendix References, Exhibit References, or postage for
those either. Those should also be sought by the Federal Supreme Court Services in order
to have the full picture and a clearer look into the specifics of these cases as they have truly
unfolded. Not ordering these documents from the respective courthouses, figuring through
exhibits, or reporting issues with enforcement and authorities, as Justices, agents of change,
and Federal Contractors will bind those actions to further criminal and civil litigation.

The Aliases of the people involved in crimes have required this to be a sensitive document.
In and as such the following Aliases are in use in the document: SS (accused abuser, mother
of the victim child, and criminal fraud herein named), GT (her attorney), CB (her father).
TW (her mother), SD (amicus attorney), and Mr. JDS and SS's child will also now be known
as LAAAS.
Any other actors who are complacent and in neglect to such fraudulent gains like Ms.
Blacksheer, may be called, actor 1, actor 2, etc.... as many people were orchestrated in the
conspiracy to defraud which included plans to sodomize Mr. JDS's place of living in
attempts to murder him and those around him through deceptive and constructive means.
Actor Key Code:
Actor 1: David Shaw
Actor 2: Torrie Kolar
Actor 3: James Kolar
Actor 4: Tina Lankford
Actor 5: Slaid Carter
Actor 6: Nick Dee
Actor 7: Jessica Blackshear
Actor 8: Any other possible family members of the constructive fraud. Patrick Reynolds
(heir to Marlboro Estate)

Any others may be subject to having their names and personal information listed due to
time restraints for filing, opponents clamoring for “statute of limitations", and due process
time issues with a child being held in a state of perpetual maternal abuse.

TABLE OF CONTENTS
Page
2-3
INDEX OF AUTHORITIES
NO VALID FORMAL OPINIONS OF THE FEDERAL VRA CASE HAVE BEEN
MADE BY COUNTY OR STATE OFFICIALS.
STATEMENT OF THE CASE.............................................
4-8
STATEMENT OF JURISDICTION AND PROSECUTION
9
CONSTITUTIONAL / STATUTORY PROVISIONS INVOLVED INCLUDED IN
QUESTIONS AND ISSUES PRESENTED.
ISSUES PRESENTED................................................................
10
a) Family Law Broken (91a. 1) Denying Dismissal before Discovery.
b) Civil Law Broken (107.009b) Denying Immunity to Amicus.
c) Federal and International Laws Broken (Federal Victim’s Rights Law 18 U.S. Code 3771)
Judges and BAR Certified Lawyers constructively, coercively, through collusion, and knowingly
put children back into danger after Civil and Criminal laws have been breached in Dallas, TX,
Mr. JDS was beaten, shocked with over three million volts, and almost shot in the face, trying to
protect Federal Law for his only biological daughter, then a victim protected by VRA laws, at
gunpoint due to Judges, Lawyers, Peace Officers, and Officers of the Court’s illegal actions with
an “accused maternal abuser”, with a degenerative syndrome, over subjective language,
Defamation, and without criminal due process.
d) Fair judgment with Judges who willing fully refuse to report child abuse to CPS, the DA,
and AG, Amicus Attorneys who refuse to properly record Maternal Child Abuse, Aggravated
Perjury, Fraud biasedly, and instead indulge themselves in the innocence of a child by Soliciting
them, installing Fraudulent Documents to the Court, and asking children to “strip” for them,
indulging in their insatiable desires for pure flesh, money, and credit, under bond and in record;
Ultimately, unable to give viable Discovery, press for truth with Pro Se father, or in the case of
the 191st Court, keep a timeframe at all with the Pro Se father or Plaintiff in a case at all, instead
siding with accused child abusers, frauds, and criminals, who are willing to peijure themselves
due to Court tenure, without study, and even become inconsistent with their own integrity of
word in regards to judgment issues, debts, and dates for simplicity, disregard, and lack of care.
e) No viable Discovery from opposing council in their cases. No accountability for the
child’s welfare or old estate finances now being sought. No study for Civil and Criminal
laws broken by officers of the court and maternal abuser and frauds throughout the case
and now even with their own order still being propagated continue records of fraud to the court.
No moral toward a victim child by continued denial of civil rights her person and to victim
father illegally against Civil, Federal, and International laws.
STATEMENT OF FACTS (and timeline of events).................
11-15
STATEMENT OF THE CASE AND TIMELINE OF EVENTS
16-26
SUMMARY OF THE ARGUMENT (and timeline of events)....
27
ARGUMENT AND AUTHORITIES.........................................
..28-29
REASONS FOR GRANTING WRIT........................................
..30-31
CONCLUSION..........................................................................
32-34
♦
APPENDIX................................................................................

11P a ge

INDEX OF AUTHORITIES
International law for children:
A) Convention on the Rights of the Child (1989], Comment No. 10 (2007], Comment No. 12
(2009], Comment No. 9 (2006], Comment No. 11 (2009]
B) United Nations Standard Minimum Rules for the Administration of Juvenile Justice
(‘Beijing Rules'] (1985]
C) United Nations Rules for the Protection of Juveniles Deprived of their Liberty (‘JDLs’
or ‘Havana Rules’) (1990)
D) ) United Nations Guidelines for the Prevention of Juvenile Delinquency (‘Riyadh
Guidelines’) (1990)
E) Guidelines for Action on Children in the Criminal Justice System (Annex to UN
Resolution 1997/30 - Administration of Juvenile Justice (‘Vienna Guidelines’)) (1997) ...
F) United National Common Approach to Justice for Children (2008)
International - apply to both children and adults
G) International Covenant on Civil and Political Rights (ICCPR) (1966)
H) United Nations Standard Minimum Rules for Non-custodial Measures (‘Tokyo
Rules’) (1990)
I) Standard Minimum Rules for the Treatment of Prisoners (1955)
J) Body of Principles for the Protection of All Persons under Any Form of
Detention or Imprisonment (1988)
K) Guidelines on the Role of Prosecutors (1990)
Regional - specific to children in regards to international law:
L) Organization of African Unity] African Charter on the Rights and Welfare of the Child
(ACRWC) (1990)
Regional ■ apply to both children and adults:
M) [OAS] American Convention on Human Rights (1978)
N) Council of Europe] Convention for the Protection of Human Rights and Fundamental
Freedoms (1950 / as amended by Protocol No. 11 - 1998)
O) League of Arab States] Arab Charter on Human Rights (2004)
MALPRACTICE AND DISCIPLINARY CODES Statutes and other Authorities BROKEN
The Authority of this Case inherent to the State of Texas, Miss LAAAS, and Mr. Jules
Dylan Stuer.
P) This Case is Governed by all laws mentioned thus far, Texas Criminal Conspiracy Title I,
and Various Other Criminal Codes:
• PI] Texas Penal Code Section 15.02 (15 - 01 attempt)
• P2) Texas Penal Code Ann 15.02 Statute (Maybe inferred from acts of the Parties)
(P3) Chapter 37: Perjury and other falsification
• P4) 37.07 - 37.09 Tampering with or fabricating physical evidence.
• P5) 37.10 Tampering with Government Records (to suit their needs)
2 | Page

• P6) 37.101 Fraudulent giving of Financial Statement
• P7) 37.02 Perjury (Intent to deceive), (swear to the truth of a knowingly false
statement)
• P8) 37.03 Aggravated Perjury (Felony of the Third Degree
• P9) 37.06 Inconsistent Statements
• P10) Texas Civil Practice and Remedies codes: 41.002, 41.003, 41.005 Criminal,
49.07, and 49.08
• Pll) Texas Probate Code Section 682.12
• P12) Texas Estate Code Section 1023.001
• P13) Texas Estate Code 1054.005
• P14) Texas Disciplinary Rules of professional Conduct (TDRPS)
• P15) American BAR Association's Model Rules of Professional Conduct (ABA Model
Rules)
• P16) Texas Lawyers Creed (TLC)
• P17) Texas Rules of Disciplinary Procedure (TRDO)
• P18) Texas Rules of Civil Procedure (TRCP)
• P19) Restatement of Law Governing Lawyers
Q) CRIME VICTIMS’ RIGHTS ACT (CVRA): 18 U.S.C. § 3771 a(6-8)
R) Balfour Co. v State Trust and Sav. Bank 120 S.W. 477,479,
Tex. Civ. App. Waco 1938, no writ
S) Brush v. Reata Oil and Gas Corp., 984 S.W. 3d 720,726,
Tex. App. Waco 1998 petition denied
T) Development Copp v. Garfield S.W. 3d 631, 636
Tex. App. Houston, 1st Dist. 2002
U) Hahn v. Love, 321 S.W. 3d 517, 523-524,
Tex. App. Houston, 1st Dist. 2009, Petition Denied
V) Jonson V. Brewer and Pritchard,
p.c. 73 S.W. 3d at 204
W) Kewit, Prods. Inc V. N and H Instruments Inc. 616 F2d 833
11 Cir. 1980 Place 5
WW) Larsen v. Carlene Langford and Associates, 41 S.W. 3d 245, 249,
Tex. App. Waco 2001, petition Denied
X) Mack Trucks, 20 S.W. 3d at 582,
City of Keller v. Wilson, 168 S.W. 3d 801, 827, Tex. 2005
Y) Science Spectrum, Inc. v. Martinez,,
941 S.W. 2d 910, 912 (Tex. 1997)
Z) Valence operation Co. V. Doresett, 164 S.W. 3d 656, 661,
Tex. 2005
Shepherded Law also given by BAR Certified Attorney Mr. James Fordham in regards to
illegal operations ofAmicus, her contempt ofMr. JDSfor his financial indigence, and
her profiting from a child victim with her lawfirm, Judges, and other lawfirms, as title
IV child support available in the 255th via court transcriber.
3|Page

L

STATEMENT OF THE CASE
Nature ofthe case; This case arose as falsified evidence of family violence was
manipulated against a victim JDS to provoke him and ruin
his relationship with his family. By so doing SS was able to
constructively defraud him with opposing attorneys. SS,
was under constant pressure to defraud her husband by her
father (a supposed “fraud expert” for the courts who had
gone bad out of spite, money, and bad business dealings
with the Petitioner) and mother (a CPA who fraudulently
switched family assets to her and her daughter’s advantage
to allow for Aggravated Peijury and Fraud in Court). SS
began slapping the child LAAAS uncontrollably and
emotionally on her face at just two months old in regular
bouts of maternal child abuse as she pre-planned the
divorce and subsequent fraud in secret. SS was unshook by
the damage maternal abuse did to the child without any
ethic or moral. BAR Certified Attorneys during divorce
proceedings refused to report the ongoing maternal child
abuse, mocked, Defamed, and sadized JDS through
multiple Records of Fraud to the Court, Defamation, and
Aggravated Perjury: Writ of Attachment and the Final
Decree. SS returned her daughter to JDS repeatedly in
states of dismay with obvious signs of ongoing maternal
child abuse (namely: visitation and alienation child abuse),
bruised, with red marks, various other issues, and was
subsequently given the child back illegally against Federal
Victim’s Rights Law, 18 USA Code 3771(a)(6-8) which
declares victim LAAAS and then victim JDS had the right
to “fully and timely resolution”, “proceedings free from
unreasonable delay”, and to “be treated with fairness and
with respect for the victims’ dignity and privacy”. When
this information and information on the full family estate
was given to the Amicus she ignored the information,
clamored to have Mr. JDS held at gunpoint for the child
against federal VRA laws, used it against him biasedly,
illegally, and contributed to the constructive fraud by
improperly influencing negotiations, disregarding family
and community estate value, stripping the child naked,
further contributing to the victimization of LAAAS and her
credit for the attorney’s legal support, as Title IV “child
4|Page

support”. Asset Recovery and child custody then become
the primary issues with Pro Se father now driven into
destitution, after losing his fair half an $1.8 million dollar
family estate, and being victimized, alongside of his
daughter by Records of Fraud to the courts by opposing
sides now actively swaying and improperly influencing
Honorable Judges to continue victimization.
Disposition in the Mr. JDS promptly and legitamently took out two
trial court:
Defamation lawsuits as the Amicus started biasedly trying
to pin him for the maternal criminal behavior,
preposterously, and maliciously while it was obviously not
JDS’ fault SS was plunging him into emotional and
financial turmoil and actively abusing the child
purposefully in further bouts of her own syndrome. Amicus
SD and opposing attorney GT were indulged by teaming up
(more than 80+ years of legal experience) against Mr. JDS
(Pro Se first year) to slander him, craft libel, and ruin his
credibility with Judge Beauchamp, and Judge Cooks, of the
255th Court, by holding that he was “financially depriving”
his wife, and ex parte entered in Fraudulent Records to the
255th Court, to have his only now maternally abused
daughter stripped away from him at gunpoint, via a
subjectively written and libelous Writ of Attachment, and
then returned LAAAS to her maternal abuser against
Federal Victim’s Rights Laws. All the while Mr. JDS was
effectively defrauded out of an estimated $1.8 million
dollar family communal estate, which was profusely
documented for the Court, after the first and second
temporary order were broken by SS, multiple counts of
Aggravated Perjury, and multiple Actors were in place after
the defamation, slander, and libel had taken it’s toll on JDS.

Disposition in the
court of appeals
and IX supreme
court:

5| Page

To cover up their wrongs, SD and GT went on to strip the
child naked, in a further violation of Federal Law, to look
for signs of “abuse” from the father, against their own
Codes of Conduct, Federal, and Criminal law, which were
non-existent, as SS was the one knowingly guilty of such
crimes. They went on to then have Mr. JDS designated as a

“vexatious litigant”, started outlandishly flipping the script
around to slander JDS and claim Mr. JDS was the
“neglector”, a “stalker”, and then began bond proceedings
against him (multiple times) to have him locked up and
committed to a mental institution also against Federal VRA
law. Wherefore, Mr. JDS had the Honorable Judge
Tobolowsky recused and has asked that certain judges,
lawyers, and officers of the court be sought for Prosecution
under RICO and VRA codes / laws for participation in
active crimes against crime victims. No viable Discovery
has ever been forthcoming for BAR Certified Attorneys or
SS throughout any case as they have held information
against Motions to Compel, Orders to Mediate, and for
Contempt effectively through the constructive fraud. FLP
(supervised custody) access has also been unfruitful due to
this type of maternal visitation and maternal alienation
child abuse. The mother SS has simply refused to respond
to FLP or initiate any processes, thus ruining the fatherdaughter relationship over the course of four years in
victim status. The FLP center then makes excuses without
any fruitful reason or answer to problems with maternal
abuse thus leaving JDS calling over and over, initiating
process alone, further alienated without calls back. Then
the FLP center nor SS is available to Mr. JDS or his child
as Court Ordered, every 15 days for free, as stated in Court
due to the torturous, preposterous, and maternally
fraudulent and child abusive syndrome inherent. The
Defendants are thus breaking Civil and Criminal law and
using the child for fraudulent gains while soliciting her for
further access through other Actors to continue to glean
Mr. JDS’ finances, time, space, and possessions so they can
continue their Conspiracy to Defraud him and drive him
further into destitution. Meanwhile, SS, now valued at over
$98 million USD due to her defrauding JDS, her new
husband, Actor 8, and other Actors. They in turn continue
marring Mr. JDS’ credit, the father-daughter relationship,
and his finances perpetually for Medicaid due to ongoing
Medicaid Fraud. Child Support due to Child Support
Fraud, and criminal record due to the Conspiracy to
Defraud constructively. Now that they have effectively
6| Page

ruined Mr. JDS’ time with his child, his money, they are
going after his space, possessions, and recently had old
family friends conspire, Actors #1-8 against Mr. JDS to try
and have him locked up for crimes he did not commit after
the perpetrators had been actively involved in illegal
activities without telling Mr. JDS in connection to Mrs. SS’
alienation patterns, constructive fraud, deception, and
ongoing syndrome. The 5th Court of Appeals originally
offered to look at the case properly using four judges and
eventually came to excuse with Mr. JDS, after they had
shuffled around judges enough to only afford him one
judge. The one judge then improperly judges the original
appeal and not the most recent Amended summary based
on the grammar that had already been fixed for the Appeals
Court. The child being endangered due to the mother’s
syndrome, all the while, and now experiencing signs of
learning and development issues four years later without
proper reporting of Maternal Child Abuse by the Amicus,
judges, or any other officer of the court. So the lone
Appeals judge, rather than report content to CPS, AG, and
DA of TX as requested focused solely on the grammar of
the first appeal without being Amended and grammatical
mistakes to discredit and dismiss Mr. JDS’ work with the
court systems and simply discharge all issues. Mr. JDS now
asks the Federal Supreme Court to offer favor to his
protection of his daughter under Federal Victim’s Rights
Laws, from July 1st, 2017, and restore V2 of his estate,
approximately ~$900,000.00USD, plus growth to
$1,200,000.00USD that year, which was projected to grow
$250,000.00USD to $500,000.00USD, plus an additional
$1,200,000.00USD a year due to hardship and damages
now caused, through Federal Supreme Court Mandate,
Writ(s), State AG resources, IRS, FTC, SEC, DA, and
Victim Compensation Program, in such a way as so he may
get back to living his life with his daughter unmolested by
SS, her mother, SS’ father, other actors, other court
officials, and their now heavily solicited friends. Please
Reverse Decree and Lawsuits to reflect relief from this case
and enter Writ(s) needed and Orders into child support case
20-16005, Divorce Case DF-17-05507s, in the way of Bill
7 | Page

of Review, or Writ(s), to reflect the ongoing maternal
parental alienation child abuse, maternal constructive fraud,
maternal perjury, and any other constructive crimes against
victim LAAAS and her victim father. Enforcement with
FULL Estate Recovery, now estimated at ~$4.8million to
~$6 million USD, growing at a rate of ~$1.2 million a year,
and re-construct his and his daughter’s once thriving Estate
after 4 to 5 years of turmoil. In conclusion, this is being
requested as relief to two victims of various constructive
maternal crimes.

8|Page

STATEMENT OF JURISDICTION AND PROSECUTION

This issue, arising out of Dallas County, is to be dealt with under the scrutiny of
the USA Federal Supreme Court of Washington, DC.
Due to Judges of various Dallas County, Texas Courts breaking Standing Orders,
to protect children from being “Disrupted”, The Supreme Court of Texas breaking
rule 508.3, which allows a full default if the “Defendant did not answer a claim by
the answer date”, in this case 60 days, due to Federal Victim’s Rights Act laws this
case is now being forwarded to The USA Federal Supreme Court for prompt action
from the Department of Justice to relieve a child, attach writ to her and her now
brothers) and/or sister(s), recover funds, relieve LAAAS, and relieve her victim
father of maternal child abuse, multiple counts of maternal aggravated peijury, and
maternal fraud.
Full Documentation, Reporting of, and Prosecution for Crimes committed by
SS, Actors, BAR Certified Attorneys, and State of TX officers of the court are!
also requested, therefore, and at this time REQUIRED BY FEDERAL LAW.

9| Page

Issues Presented for Review:
a) ISSUE I: The Courts erred in granted Dismissal of Appellant's Motion to
Intervene, as Appellant had ample cause to bring suit, the suit was from
Family Court and therefore against Dismissal Rules of 91a.l. which
specifically states: "except in a case brought under Family Code".
b) ISSUE II: The Courts erred in granted Dismissal of the full Defamation
case due to violations of Family Code 107.009b. without viable
Discovery, which show that the Amicus, SD Perjured herself over three
times on the record: 1] about there being maternal abuse to the child "at
all" 2) about her stripping the child naked or not 3) about Mr. JDS child
support and finances fraudulently for a perk on his and LAAAS' child
support money as a Title 4 Agency.
c) ISSUE III The Courts erred on ethics with Federal law in granted
Dismissal due to several violations of Civil law. Federal Victim's Rights
law 18 U.S. Code 3771 and International laws. Mr. JDS had put in
motions for full custody due to such abuse, the child was healing, and
the amicus mocked him and had his daughter taken forcibly at gunpoint
during negotiations thus proving SD's malicious and biased nature.
d) ISSUE IV: The Courts erred in not following up with the AG, DA, or
Enforcement in regards to proven criminal acts by the Appallees. This
was asked for in order to at the very least report these criminal issues
from a magistrate's perspective and find a timeline for relief.
Prosecution is now requested and necessary from Federal ludges.
e) ISSUE V: The Courts erred and have placed the victim child, Miss.
LAAAS, in further danger without ANY VIABLE DISCOVERY as to her
whereabouts or medical condition to father every 15 days as stated in
Civil Orders. Thus ruining and shattering Judge's inheritance to their
oath, their respective Court's, and STANDING ORDERS to protect the
child from danger and not to disnipt the said child Lawyers then
monopolized the court for their libel and mocked Mr. JDS with Judges
and the child has been damaged due to such actions. The civil order for
the Pro Se father as it was fraudulently propagated from it's origin to
find Mr. JDS in ruin without even proper numbers given, due to him now
in BOND, AND AFFIXED IRREVOCABLE.
Now Reconstructed Estate and Asset Recovery Remedies, Compensation, and Recovery are being
sought to recreate Mr. JDS' Estate for him and his daughter LAAAS, her now new family member(s),
and their equal protection from being victimized again.

10 | P a g e

Statement of Facts (and timeline of events)
Appellant’s Brief is Available with Past Documentation
in Cases.
On Federal Supreme Court Appeal for Defamation
Trial Cause No.: DC-18-07494 V. SD BAR # 24057712, UNDER CASE # 051900752-CV, One judge offered an argument about grammar to a document,
which wasn't in question after the Amended version was given, which four
were appointed to solve.
1) Before Divorce was filed in early March 2017 SS had already transferred
properties into her mother's TW's name discretely as CFO of Mr. JDS'
privately held DBA Stuer Real Estate and Company alongside of sister
company Green Home Residential (whom Mr. JDS also masterminded
and funded) was then valued at over ~$1,500,000.00 to ~$1,800,000.00
million USD in value. LAAAS' estate on the year of 2017 was intended to
make a projected $250,000.00 to $500,000.00 USD additional per year
or above. LAAAS at this point had never been sick once, had never been
upset or even so much as thrown a tantrum, due to her father's faithful
duty to her, and was dealing with her mother's sporadic syndrome.
2) Mr. JDS and SS were very successful at that point, in 2016-2017, and
married for 7 years. They had interwoven their community finances to
include over 10 trusts / bank accounts, in their community estate, and
over 20 properties (See Exhibits in Previous Cases: 1A to IE, B1 to B4]
111 P a g e

STU to STU4, SI to S15, BD to BD6, and BIO) which were being held and
managed in their family business. [R to Z]
3) SS is a party in the Fraud complaint: CGS-73496 also OAG: 0013611355
to the Attorney General. Ms. SS has denied any involvement with any
account, Magnolia trust, J trust, JSL trust, or any property, under oath in
an obvious count of Aggravated Perjury to the 255th court during trial.
She also denied working with Mr. JDS in additional counts. These
properties at one point held in marriage were quietly transferred
illegally to SS's side of the family all the while denying their existence in
JDS' Divorce Court Case. flProof shown in CR^SS^. DF-17-0550^
^255^- DF-17-055Q^i SS lied about involvement as to their placement
in trust, management, and ownership altogether and thus intentionally
defrauded the 255th Court. [R to Z] [PI to PI9]
4) Ample proof of Fraud was thus given to Amicus, the AG, and CPS in the
form of cashed money orders for child support (See Exhibits in Previous
r"

£as^FjR to FR5) and testimony by SS SD and GT. This and payments to
Ms. SS for Child Support were overlooked purposefully by lawyers and
lied about in the 255th Court, during trial, as they claimed Mr. JDS was
behind on child support, purposefully neglectful to his daughter, for
those amounts preposterously, slanderously, and fraudulently when Mr.
12 | P a g e

JDS was clearly ahead. This is an obvious count of Constructive Fraud
and an important beginning to the Conspiracy to Defraud Mr. JDS. [R
to Z] [PI to P19]
5) Ms. SS also engaged in numerous documented bouts of maternal child
abuse, namely maternal parental alienation child abuse and maternal
visitation child abuse, by not returning her child, Miss. LAAAS, home to
Mr. JDS once without visible signs of maternal child abuse. This was
done to unseat Mr. JDS emotionally, financially, and ruin his visitation
time with his daughter. These signs of child abuse were documented for
CPS under Case Numbers: 2017-2018 457-369-27, 2019 723-073-92, [A
to 0] [PI to P2] [P9 to Pll] and in 2020.
6) SD engaged in criminal misconduct to Defame and Conspire against Mr.
JDS and his best wishes for his daughter, Miss. LAAAS, who was
ultimately victimized repeatedly by her mother and stolen away from
her father, after repeated bouts of documented maternal child abuse,
(Including rashes, red marks, bruises, bleeding anus, etc) then and still
against Federal Victim's Rights, Civil, and International laws by BAR
Certified Attorneys herein named. [A to 0] Officers of the Court were
also involved in crimes due to their own ignorance and were acting on
Documents of Fraud given to and filed by the 255th Court capriciously.
13 | P a g e

7) The Amicus, BAR Certified Attorney, SD, then appended an over
approximately ~$12,000.00 debt to the child to be re-paid by mother
and father, through Contempt if necessary, as Title IV Child Support.
[P14 to P18] [Mr. Tames Fordham Motion in CR:255th , DF-17-05507]
fTR:255th. DF-17-05507j
8) The Amicus, BAR Certified Attorney, SD was quoted as having had the
infant LAAAS child then "strip for her", in the 255th Court, as a victim of
maternal child abuse, after solicitation of the mother and opposing
Attorney, clearly against Federal Victim's Rights laws, protecting Miss.
LAAAS from such degrading treatment while going through a maternal
child abuse syndrome, for the additional Criminal Count of Use of a
Child for Sales / Solicitation 51.0145. [A to 0]
9) SD and GT then mocked the Defrauded Mr. JDS to "just get a job" as he
was being pulled away from his career, with hi§ family businesses, and
properties; SD repeatedly telling him, with indifference, to "quit being a
pussy", and claimed he was "obsessing" over the consistent, regular
signs of maternal child abuse, and poor condition, on return, of his only
baby girl. SD and GT then offering recommendations, out of spite, to
Honorable Judges Beauchamp and Judge Cooks to lock the Plaintiff up in
a Mental Institution after his heroic attempt to protect his only daughter
14 | P a g e

under Federal Victim's Rights law [Q] from imminent danger and
furthered harm. [PI to P19] [R to Z] [A to 0] for an additional Criminal
Count of: Conspire to Commit Person to Mental Health Facility
571.020(a) after refusing to report the maternal child abuse for
Additional Criminal Counts of: Fraud Destroy Remove Concealment
37.101. 32.47. Prevention Detection of Fraud for Medical
Assistance 32.0391. to the said child. Interfering with Investigation
of said Maternal Child Abuse / Neglect 261.3032. Failure to Report
Child Abuse 261.109. and further proves a Prohibited Conflict of
Interest. 305.031 against Codes of Ethics.
10)

Among the specific Statements to the Courts about Mr. JDS which

were libel written into Court record in the 255th, are:
a. He "doesn't have a family"
b. He is "emotionally unstable"
c. He is "financially unstable
d. He will be leaving with Lily to go outside of the country
e. He is "neglectful"
f. He is "likely to stalk"
g. Amongst various other documented defamation, slander, and libel
on the record.
15 | P a g e

Statement of the case and timeline of events:
11)

Mr. JDS was under the impression that the "family business" Stuer

Real Estate and Company was operating in perfect order under Ms. SS
and Mr. JDS at the time of the subsequent Defrauding process
perpetrated in Divorce Court. Now Divorce Decree written by GT and SD
ebb at the integrity, character, dignity, and values of Mr. JDS
Fraudulently with Slander and Libel as the 255th Judges, in DF -1705507s, have been tainted by this said Fraud, Perjury, and Defamation
outlined in Defamation cases: DC-18-07493, DC-18-07494, an additional
Federal Malpractice Complaint, and in this Federal Supreme Court case.
12)

Judge Tobolowsky was improperly influenced due to The Ryan

McFarlin Law Firm taking the Amicus SD's case as Mr. Ryan McFarlin is
a natural family member of Associate Judge McFarlin, also on the same
floor of litigation in the 298th and was a magistrate in the new
Malpractice and Criminal Complaint: DC-19-16060.

She was

subsequently RECUSED due to her association, favor, and lack of
maternal child abuse reporting or discovery help.
13)

The Amicus has been seen to politically contribute to the 255th

Court, Judge Cooks is an old Amicus Attorney, GT has over 35 years

161 P a g e

tenure in Family Law, and therefore it is important that this USA and
Federal Supreme Court make certain ruling which would affect these
courts now that family practice, conduct, and behavior have turned
dangerous and criminal in nature SD and co*conspirators toward the
father and child. [PI to P19]
14)

The child, Miss. LAAAS, before a subjective Writ was exercised

illegitimately and ex parte on her body against VRA Federal Law, was a
victim child who is a victim of maternal child abuse, the effects of which
were outlined in an over 200 file USB given to CPS during BAR Certified
Attorney's continued Defamation, Malpractice, and Criminal Conduct,
and now in various CPS and legal cases. [A to 0]
a. Mr. JDS reported this predatory activity to the Amicus Attorney
SD, several times, and she mocked him as "being a pussy", "being
crazy", "rambling" and never reported maternal child abuse even
though proof was evident in Defamation Cases, Ethical Codes,
and additional Criminal Counts of:
Fraud

Destroy

Remove

Concealment

37.101.

32.47.

Prevention Detection of Fraud for Medical Assistance
32.0391, to the said child1 Interfering with Investigation of
said Maternal Child Abuse / Neglect 261.3032. Failure to
17 | P a g e

Report Child Abuse 261.109, and further proves a Prohibited
Conflict of Interest. 305.031 against Codes of Ethics. [PI to
P19] As well as BEGAN issues with Federal VRA laws and
ongoing / perpetual Maternal Child Abuse. Maternal Fraud.
Maternal Aggravated Perjury to Courts, and said child LAAAS.
b. Mr. JDS was involved in negotiations and had just received Vz
custody from the said mother and has a Motion in Action, from
July 2017, for Full Custody and Estate Access; at the same time a
Writ of Attachment was quickly prepared ex parte, written to
Defame Mr. JDS, unseat Mr. JDS from his Estate access, discredit
him, gain full and unfettered control of it, and Miss. LAAAS.
c. SD and GT created their own subjective and Defamatory Writ with
libel and hurriedly passed it in front of the Associate Judge
Beauchamp, at the end of July 2017, ex parte and without further
contact with Mr. JDS about his motion for full custody, even after
promises to call. Mr. JDS was then a busy father with his family
and LAAAS going through potty training awaiting trial in
September of 2017. Although he was able faithfully, in that full
July 2017 to get rid of the rashes all over LAAAS's body, which
were left by her mother due to poor care and further maternal
18 | P a g e

r

visitation and alienation child abuse. The BAR Certified Attorneys
intentionally then, maliciously, and willing fully damaged the
father daughter relationship permanently, by then conspiring to
and breaking Federal Victim's Rights law 18 U.S.C. 3771 a.l [Q]
"right to be protected from the accused" provision, and
maliciously collaborated together to kidnap the child, using Court
resources, without giving Mr. JDS a date for his Action for Full
Custody. They executed the plan to have Mr. JDS thrown in jail or
a mental institution forcefully and illegally after defaming his
character by sending Peace Officers who immediately broke and
entered his home, thinking LAAAS was endanger due to subjective
libel, at gunpoint, for ransom with state resources after
negotiations weren't going the opposing lawyer's way. The Peace
Officers without knowledge of the said fraud forcibly assaulted
the father in front of his daughter, shot him with over three
million volts, held him at gunpoint, as one of them threatened
"Now, I'm gonna shoot you." in front of the terror struck maternal
victim child, horrified at her return to maternal abuser and
assault against her ONLY protector at that point of victimization,
as Mr. JDS tried to uphold Federal VRA laws without knowing of
19 | P a g e

the subjective, libel filled, fraudulent document filed by the 255th
Court: Writ of Attachment. These things were all done against,
Federal VRA Laws, Civil and Criminal Laws, Rules of Professional
Conduct, Rule 8.04 due to said Attorney Misconduct, Malpractice,
and ultimately Defamation. [PI to P19] [A to 0] [R to Z]
d. The BAR Certified Attorneys then to cover their tracks tried to
have Mr. JDS locked away throughout litigation in Prison and
Mental Institutions, then blaming him for "neglect" of the child
and "stalking" in obvious and blatant shows of slander, bad faith,
poor behavior, and Malpractice. [PI to P19] [A to 0] [R to Z] for
additional Criminal Counts of:
Aggravated Perjury. 37.02. Fraud / Conspiracy to Defraud
15.01. Interfere with Investigation of Abuse / Neglect
261.3032. False Alarm and Report of Emergency 42.06(b).
and then due to those crimes also now showing their willingness
to commit the crime of Filing a False Document of Writ and
eventually Decree with the Courts punishable in Two Additional
Counts as a Federal Offense under 8 USA Code 1324c.
e. SD and GT, Officers of the Court, and BAR Certified Attorneys lied
about finances, which were very direct about properties being
20 | P a g e

held, child support monies due to Mr. JDS, and accounts that were
being paid by Mr. JDS; and even when Court Ordered to be
included into the Divorce Decree the monies were not; Due to
Fraudulent

Criminal

Activity

and

Malpractice

by

them

cooperatively specifically due to Rules of Professional Conduct
3.4,4.01,4.03,4.04,8.04, in more Criminal Counts of:
Aggravated Perjury 37.02. Filing a False Document to the
255th Court as a Federal Offense under 8 USA Code 1324c.
15]

The Writ and the Decree contain subjective inferences about Mr.

JDS which were never proven, were libelous, and were biased due to
the mental instability of a maternally abusive mother Ms. SS, who was
known to have slapped LAAAS lashing out emotionally, while
breastfeeding from time to time, since two months after Miss. LAAAS's
birth, two photos of the child with black eyes have since been found by
the said father to prove the occurrences, thus also breaking Rules of
Professional Conduct 4.01, 4.04, 8.04, for BAR Certified Attorneys'
Malpractice who constructively sought to help SS Criminally
Defraud Mr. JDS, and shattered the Dallas County Standing Order
Regarding Children, Pets, and Property. [A to 0]

211 P a g e

16)

The subsequent paperwork, after the second Temporary Order,

given by opposing Officers of the Court, were never signed by Mr. JDS.
The Plaintiff never "approved" nor "consented to" the Final Decree in
"form" or "substance" as stated in Decree. [PI to P19] Making for
another Criminal Count of: Filing a False or Forged Document to the
255th Court as a Federal Offense under 8 USA Code 1324c and a
Record of Fraud to the Court punishable under code 37.13.
17)

The second Temporary Order was broken by Ms. SS in two

medical provisions, due to her Fraud, Perjury, and help from BAR
certified Attorneys she currently owes half of all medical bills from that
time, approximately $1,500.00 to $2,500.00 USD, and they were not
included in the Decree spitefully. Other money, in addition to Estate, for
LAAAS (See Exhibits in Previous Cases: FR to FR5) was also hidden as
the co-conspirators lied about Mr. JDS being short child support money,
to the Honorable Judge Cooks, in an obvious and open Criminal Count
of: Aggravated Perjury 37.02 to further Defame Mr. JDS in the 255th
Court by SS, SD, and GT.

fjProof shown in CR:255th, DF-17-05507

fTR:255^DF-17-05507!j [PI to P3 and P8]
18)

Dr. Alina Olteanu (medic) was lied to by SS about the condition of

Mr. JDS's living space, in July 2017, while LAAAS was in Mr. JDS's care
22 | P a g e

for an additional Criminal Count of: Aggravated Perjury to a Medical
Officer 37.02. Prevention Detection of Fraud (Medical Assistance)
32.0391. and False Alarm and Report of Emergency 42.06(b). Mr.
JDS had taken the child multiple times to the same Dr. for issues that her
mother had brought her back to him with during the series of maternal
visitation child abuses and furthered maternal alienation child abuse
syndrome. [P8 to P10]
19)

The judgment in the 255th Court's civil matter is still under

protest and contest and will be revisited by Writ and Bill of Review as
necessary. The Decreed Order is willfully not being followed by the
Defendants and Ms. SS to further reward the maternal visitation child
abuse and violate the valued rights and time of the father-daughter
relationship inflicting more pain and damage to the victim Petitioner
and his victim child. Mr. JDS in stark contrast has followed every order
from the 255th Court, except for payments due to indentured and
financial indigent stature, even though he has not provided his signature
on damaging libel and fraudulent documentation in Decree.
20)

Defamation and Malpractice cases against these lawyers have all

been dismissed based on obscure technicalities not by substance. Only
one case has been received for Appeal due to the excessive due process
23 | P a g e

time it took to finish DC-18-07493, being inconsistent with Judge
Slaughter's final words, in the 191st Court. fjProof shown In CR: 191st, DC]
[18-07493 RR: 191st, DC-18-07493h, and Malpractice case.
21]

The creation of the Writ and Decree for all practical purposes

contained certain elements of Defamation, Perjury, and Fraud which
then served as an additional Criminal Counts of: Filing a Fraudulent
Document to the Court 37.13. [PI to P19]
22]

While the opposition objected to all evidence brought to the table

by Mr. JDS as not being within various legal codes. They were fixated on
ruining Mr. JDS's father-daughter relationship, estate, and eventually life
as the Amicus pledged to “finish him off' in jail to BAR Certified
Attorney Mr. James Fordham, appointed to help Mr. JDS by the
Honorably 255th Court, for not paying her Legal Fees appended to the
child, Miss. LAAAS, illegally (against Texas Constitutional Provisions] as
Title IV Child Support without Title IV Certificate after a complete
fleece of family, career, businesses, trusts, and properties. [PI to P19]
23]

As a result of the Maternal Child Abuse, Defamation, and

Defrauding various other crimes were also committed against Mr. JDS
and his only child. SS being wild enough at times to choke herself and
blame Mr. JDS to try and paint him into an "abuser" so she could have all
24 | P a g e

the money and custody in contest. [P14 to P19] [R to Z] which proves
intent, malice, a willingness to actively lie, psychotic nature of the
mother, and willingness to ultimately defraud father and abuse LAAAS.
24)

Mr. JDS and Miss. LAAAS were subsequently Defrauded out of

their inheritance and precious time together through the divorcing
procedures, which was due at the time of Decree, Estate value,
properties, child support duties, medical money which was not written
in out of spite for Mr. JDS, with mal-intent by abusive mother, BAR
Certified Attorneys at law, and capricious officers of the court. The
money from child support remains to this very day uncalculated and
purposefully left out of the Divorce Decree fSee Exhibits in Previous;
r'

—

Cases: FR to FR5, AB FB, AB FC, and DP to DD27|) due to the Defrauding
process constructed and masterminded by opposing BAR Certified

Attorneys. Mr. JDS was subsequently left broken, financially indigent,
and still owing tens of thousands more USD in fees, indenture, and debt
now without even a simple chance to see his daughter unadulterated,
unmolested, and without being tainted by maternal visitation child
abuse syndrome. Even though SS claimed no properties or accounts
originally (in an obvious Aggravated Perjury), the 255th Court did order
certain properties, and amounts listed in discovery which were
25 | P a g e

intentionally not. These properties and amounts correspond with Stuer
Real Estate and Company documents which were subsequently falsified
on record, against Dallas Family Court's Standing Orders and Criminal
Law. Ultimately the full Estate was cumulatively stolen from the
petitioner illegally, along with trust assets, lifestyle, funds, security from
family business income, daughter, and family who went along with
fraudulent tactics without knowing. [R to Z]
25)

This Malpractice, Defamation, and Criminal Conduct has left Mr.

JDS as financially indigent and left to circumstance through lack of
father daughter time, money, and Defendants now actively chasing after
his space and resources. Recent conspiracies focused on taking JDS'
home away from him through his disillusioned sisters which resulted in
one of their husbands, listed as an Actor to said fraud, Mr. Chaz English
who was also involved in IRS Tax Fraud punishable by 26 USA Code
7206 activity reported in staying at Mr. Stuer's homestead illegally. This
is why this Case is necessary and a benefit to Mr. JDS, his family, his
daughter who is as of this clerk's stamp, six years old. Due to maternal
syndrome, intent to defraud, willingness to commit crimes for reward,
the crimes have continually gotten worse and closer to home.

26 | P a g e

SUMMARY OF THE ARGUMENT
Certain crimes were committed during the divorcing procedures in case DF-1705507s. The case’s DIVORCE DECREE was never signed by Mr. JDS due to the
ongoing crimes being committed. Mr. JDS due to being defrauded out of his full
estate monies, businesses, and way of life is not able to pay court fees, child
support duties, and awards made to the opposing lawyers. He has been in
indentured apprentice now and missed out on a portion of LAAAS’ life, to
maternal child abuse, for four years now due to subsequent victimization after libel
and ultimately Defamation on fraudulent documents now filed with the courts.
Efforts are now being made with the Federal Supreme Court to recover assets
justified under various Motions and Actions to Intervene given throughout the
cases. In order for such procedures to take place an ENOURMOUS pressure has
been placed on Pro Se litigant Mr. JDS to not only provide for his child, as a duty,
after being victimized (see new lawsuit on child support # DF-20-16005), but to
heal any damages that have been done over time due to the maternal child abuse
syndrome which has characterized Mr. JDS in a foul way to the child due to the
psychological quotient involved (LAAAS believing JDS to be dead at this time, a
bad person because peace officers were involved in beating him up in front of her,
her mother’s maternal alienation abuse, which does in effect brainwash the child of
the father through time, etc.).
In order to provide restitution for such crimes as which would affect a father
child relationship during key points of time in the child’s development it will take
copious Awards by this Federal Supreme Court. Certain truths will need to be
assumed and certain processes will need to be taken ownership of by more
seasoned BAR Certified Attorneys of law and judges. Mr. JDS, a pro se individual
of only four years does stand helpless to the degree of their judgments as teachers
and purveyors of Public, Federal, and International laws. It is an enormous subject
and daunting to say the least when dealing with your only biological daughter,
family members turned to crime, and dangerous criminals willing to hurt and
damage a child on the opposing side with extensive legal experience and malice.

27 | P a g e

ARGUMENT AND AUTHORITIES
The Federal Victim's Rights Act (VRA) is the proper Federal Act to deal with
this case, as it involves various crimes, particularly maternal child abuse
(namely: maternal visitation and maternal alienation child abuse syndrome).
SD is also in violation of her ethics code, lawyers, creed, disciplinary statutes,
and broke numerous laws to show her Immunity as Amicus a simple
technicality of this case easily sidestepped by Family Code 107.009b due to
Defamation, Malpractice, and Criminal Conduct. Federal law was first broken
to protect the child, then to return child to maternal abuser (against VRA),
and then to participate in constructive crimes is inexcusable.
Fraud was the intent and was perpetrated by Amicus SD and opposing GT
as BAR Certified Attorneys and Officers of the Court. The result: of their
cumulative criminal activity is that they changed, by unconscionable
schemes, the decision of the Honorable fudge Cooks and fudge
Beauchamp by improperly influencing the 255th Court, other Courts, and
Other fudges, in their Decisions. [R to Z] By so doing they show that if they
are willing to defraud or commit crimes they would also have engaged in
Malpractice, violate additional codes, laws, statutes, and principles [PI to P19]
which they were to have upheld as Officers of the Court.

28 | P a g e

Now to make it right we need to shift focus to protecting the child, getting a read
out on her progress and body to ensure that any damages psychological, emotional,
or physical (in soft tissue to bone) to LAAAS (as well as any inherent strengths she
may have retained through said maternal child abuse and various other crimes
against her body and mind which may have arisen) are documented for Mr. JDS
and his CORE TEAM. With proof already given in other cases of crimes and civil
issues the Asset Recovery phase is also important to Mr. JDS actually getting to be
with his daughter again without strain on her thus maintaining her million dollar
lifestyle. LAAAS living a multi-millionaire life now is something that should be
sustained. This then along with emotional, psychological, and physical issues must
be addressed, and therefore monetary amounts in regards to DBA The Estate of
Lily Ana Stuer obo Mr. JDS will have to be Awarded, through this Federal
Supreme Court, and however necessary, across the vast legal spectrum with any
and all Writs necessary to recover amounts deemed worthy by the Honorable USA
Federal Supreme Court and various other Courts involved for not just the benefit of
a victim Pro Se father but for a victim child Miss. LAAAS.

29 | P a g e

REASONS FOR GRANTING WRIT(s)
• This WRIT will set precedence about AMICUS Attorney function and set
ground rules for returning a child to “the accused abuser”. Thus allowing for
fewer damages to a child during the divorcing procedures. It will also cut
down on the number of parents who get away with blatant lying to the court
or defrauding of another family member through the court.
• This WRIT will set precedence about Federal Victim’s Rights Laws to only be
protected by Standing Orders and Temporary Civil Law Orders, in custody
battles, where the child is being abused/damaged. This Writ will also mitigate
future issues with child abuse due to an incorporation of Federal Victim’s
Rights Laws into Civil Law as such to keep children away from being
severely damaged or almost killed (as in the case of LAAAS and her father by
corporate corruption, aggravated perjury, and constructive fraud).
• This WRIT will set precedence that if the Petitioner is claiming to be in the
act of being defrauded (as it is continuous act accompanied by multiple other
crimes in most instances; perjury, coercion, solicitation, abuse, collusion,
amongst others) and his child are in the act of being damaged, as in case DF17-05507s that the Amicus then will then be 'UNABLE to declare himj
“emotionally and financially unstable”, and make personal digs, subjective
statements, against legal codes, and state that he “does not have a family” to
secure a Writ to the child’s body, dead or alive, or it can be labeled as]
slander, libel, and ultimately Defamation.! The reason is that ANYONE going
through divorce may be considered such, will ultimately become somewhat
vexatious by the nature of such treatment, and thus it is Capricious for the
Amicus or Judge to declare that someone going through hardship is doing it
purposefully while being victimized.
• This WRIT will set precedence that if a decree is imposed that an Amicus is
NOT able to then secure funds from a victim child, her mother or father, as
Title IV child support. This is a practice that undermines the consumer writes
of the child in such that the child has no record for debts and as such their
records need to remain pure. The amicus’ duty is to the court and as such she
can seek compensation from the court but it cannot be lumped in with duty to
the child as the Amicus could then disregard the child’s true value, as in the
case of LAAAS ($1.8 million USD), and simply append their own invoice to
the child without any real service to the child for profit incentive only, as in
the case of Amicus SD.
i

30 | P a g e

I

• This WRIT will also set precedence that any father or mother willing to go
through Criminal Procedures as “Interfering with a Public Duty”, after
multiple (more than three) reports of child abuse, to protect a child under
Constitutional, Civil, and Federal VRA Laws by getting it Dismissed without
hurting or Assaulting Officers or even simply to make it to the Federal
Supreme Court, under severe debt, indentured apprenticeship, and
victimization cannot be labeled as “neglectful”. The act of “neglect” does
NOT correspond with such actions for a victim child. Thus, “neglect” or
“likely to stalk” libel can no longer be used, extraneously in a Formal Decree
for future enforcement of Child Support or Secreting of a Child in this way in
a civil environment without ACTUAL CRIMINAL PROCEEDINGS
PROVING such harsh and dreadful activity.
• This WRIT will set precedence that an Amicus is unable to state that the
petitioner had any history of crimes unless they are realized in criminal court,
as such: claiming the petitioner had a “history of neglect” and is “likely to
stalk the other party” to ensure payment or jail against constitutional
provisions is in fact malicious in nature to procure funding through title IV
child support fraud.
-*•

31 jPage

Conclusion:
The Petitioner would like to further state that Writ(s) may be necessary to re­
instate his child, LAAAS, to the state of which she was, in perfect peace and calm,
when she was illegally kidnapped for ransom by such slander, defamation, and
libel to procure monies and control against Federal Victim’s Rights Act Laws.
Prosecution under Federal Victim’s Rights Laws is also necessary to make
an example out of said cases, criminals, and criminal acts for future litigants with
similar issues regardless of sex or sexism inherent in law. Affidavits of Prosecution
have been given and prosecution against certain judges and lawyers is
recommended by the Petitioner to correct future issues of crimes against victim
children and improper positioning of victim men or victim women for financial
deprivation through sexist, degenerative, and horribly biased means.
At the time of LAAAS being taken illegally from her father as he heroically
defended her position as being safe in regards to Federal Victim’s Rights Laws
JDS would also like full access to ALL Estate properties listed by him under
quantum meruit documentation, as outlined in his Motion and Action to
Intervene, and any subsequent cases, which were not processed properly by the
court including but not limited to all real estate properties, all bank accounts, all
monies, all trusts, and all other operational entities of the criminals involved with
LAAAS’ estate. These were at the time of divorce projected at around $1.8 million
32 | P a g e

USD and have now been re-evaluated and projected at around $4.8 million dollars
or more. These properties can now include, due to constructive fraud of SS’
mother, father, new husband, family, judges, and both attorneys who so gleefully
helped her in the defrauding process. As such there is no cap on monetary awards
but as such relief would lend to a victim child and her victim father, above $4.8
million USD for their time together, shattering and crippling damages now done,
hence to, and forevermore. Amounts are sought before prosecution through the AG
Victim’s Compensation Program, the FTC, the SEC, Department of Corrections,
and the IRS Special Operations units in order to be disbursed properly, in excess of
$4.8 million USD, to the said victim father and his victim child for their damages
and grief in addition to amounts needed for the apprehension and conviction of the
criminals involved. In regards to further child support addressed in DF-20-16005,
Ms. SS has married into an estate now worth well over $98 million USD and as
such JDS is also requesting LAAAS’ new sibling(s) become a part of their family
with Writ of Mandamus to the 255th Court, 191st Court, 298th Court, and any other
subsequent Courts, and Writ of Attachment(s) that each child be acquainted with
the wealth which they have become accustomed to with an additional payment of
$25,000.00 per child, per month, made payable as child support duty, until they all
turn 18 years of age to make an example of such far reaching crimes and set a
standard of excellence for victim children and the victim parents who hold onto
33 | P a g e

r

Federal VRA laws over the damaging confines of narrow minded, biased, and/or
sexist officers without care for victim children and some of the more dangerous,
undefined, and unproductive local / civil laws. For these causes I am created and
therefore resolved to Petition.

Respectfully submitted,

o

^^AilesDylan^l
|1238 Palhart DrYRJjfchardson TXj
(Telephone No. 469471420Q
Facsimile Nof
E-mail address____________
briticalfiles00777@gman.cor3
Pro Se

34 | P a g e

